Via Electronic Filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

May 6, 2021

Request for extension of time to file response to petition
Bayer HealthCare Pharmaceuticals Inc., et al. v. Curtis Ulleseit, et al.
No. 20-1144

Dear Mr. Harris:
I represent the Respondents in the above-captioned case. Pursuant to Rule 30.4, I am
writing to request a 60-day extension of time to file the Respondents’ brief from May 13,
2021, to July 12, 2021. Counsel for Petitioners consent to the extension.
The petition for certiorari was filed on February 12, 2021. On March 9, 2021,
Respondents filed a waiver of right to respond. On April 13, 2021, Respondents received a
response request. Respondents’ response is due to be filed on or before May 13, 2021.
This is Respondents’ first request for an extension of time to file a response. Good
cause exists for the requested extension. Given Respondents’ counsel’s briefing and trial
schedules in multiple ongoing litigations, an extension of time would better enable
preparation of a response that would be most helpful to the Court.
Thank you in advance for your consideration of this matter.
Sincerely,

C. Brooks Cutter
Counsel for Respondents
Cc: All counsel via electronic mail

WWW.CUTTERLAW.COM

401 Watt Avenue, Sacramento, CA 95864 / Tel (916) 290-9400
4179 Piedmont Ave., Ste. 325, Oakland, CA 94611 / Tel (510) 281-5881

